CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing Response in Opposition to Emergency Applications for
Stay, described below as follows:
No. 20A53
IN THE SUPREME COURT OF THE UNITED STATES,
Joseph B. Scarnati, III, et al. Applicants v. Kathy Boockvar, in her official
capacity as Secretary of Pennsylvania, et al., Respondents – Response in
Opposition to Emergency Applications for Stay
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic service to:
OBERMAYER REBMANN
MAXWELL & HIPPEL LLP
Lawrence J. Tabas
Mathieu J. Shapiro
Richard Limburg
Centre Square West
1515 Market St., Suite 3400
Philadelphia, PA 19102
Counsel for Joseph B. Scarnati III
and Jake Corman
JOHN M. GORE
Alex Potapov
51 Louisiana Avenue, NW
Washington, DC 20001
Counsel for Republican
Pennsylvania

Party

of

GREENBERG TRAURIG
Anthony Michael Pratt
Adam R. Roseman
Three Logan Square
Philadelphia, PA 19103
Counsel for Pennsylvania Democratic
Party, et al.

Per Rule 29, by U.S. Mail, first-class postage prepaid:

HANGLEY, ARONCHICK, SEGAL,
PUDLIN & SCHILLER
Mark Alan Aronchick
Michele D. Hangley
John Brent Hill
Robert Andrew Wiygul
1 Logan Sq Fl 27
Philadelphia, PA 19103-6995
Counsel for Respondents
Bucks County Board of Elections,
Chester County Board of Elections,
Montgomery County Board of Elections,
and Philadelphia County Board of Elections

BABST CALLAND CLEMENTS &
ZOMNIR, PC
Elizabeth A. Dupuis
Steven B. Silverman
330 Innovation Blvd Ste 302
State College, PA 16803

JOYCE, CARMODY, & MORAN, P.C.
Regina Maria Blewitt
Lawrence John Moran, Jr.
9 N Main St Ste 4
Pittston, PA 18640
Counsel for Respondent
Luzerne County Board of Elections

NORTHAMPTON COUNTY SOLICITOR’s
OFFICE
Timothy Patrick Brennan
Richard Eugene Santee
Brian J. Taylor
669 Washington Street
Easton, PA 18042
Counsel for Respondent
Northampton County Board of Elections

Sean Robert Keegan
Krista Ann M. Staley
603 Stanwix St Fl 6
Pittsburgh, PA 15222
Counsel for Respondents
Armstrong County Board of Elections, Bedford
County Board of Elections,
Blair County Board of Elections,
Centre County Board of Elections, Columbia
County Board of Elections, Dauphin County
Board of Elections, Fayette County Board of
Elections, Huntingdon County Board of
Elections, Indiana County Board of Elections,
Lackawanna County Board of Elections,
Lawrence County Board of Elections, Lebanon
County Board of Elections, Mercer County
Board of Elections, Montour County Board of
Elections, Northumberland County Board of
Elections, Venango County Board of Elections,
York County Board of Elections

BUTLER COUNTY SOLICITOR’S
OFFICE
White, H. William, III
124 West Diamond Street
PO Box 1208
Butler, PA 16003-1208
Counsel for Respondent
Butler County Board of Elections

LEHIGH COUNTY DEPARTMENT OF
LAW
Thomas M. Caffrey
PO Box A
Coplay, PA 18037-0200
Counsel for Respondent
Lehigh County Board of Elections

COPLOFF, RYAN, WELCH &
HOUSER
Larry E. Coploff
136 E Water St Frnt
P.O. Box 389
Lock Haven, PA 17745-0389
Counsel for Respondent
Clinton County Board of Elections

BMZ LAW PC
Snook, Stephen S.
20 S Wayne St
Lewistown, PA 17044-2145
Counsel for Respondent
Mifflin County Board of Elections

ZWICK AND ZWICKLLP
Gregory Dale Sobol
Carl John Zwick
275 Main St
Brookville, PA 15825
Counsel for Respondent
Jefferson County Board of Elections

LAVERY LAW
Stephen Bradley Edwards
Frank J. Lavery, Jr.
Andrew W. Norfleet
225 Market St., Ste 304
Harrisburg, PA 17108
Counsel for Respondent
Franklin County Board of Elections

CAFARDI FERGUSON WYRICK
Christopher P. Gabriel
2605 Nicholson Rd., Ste 2201
Sewickley, PA 15143
Counsel for Respondent
Clarion County Board of Elections

NEWMAN WILLIAMS, P.C.
Gerard Joseph Geiger
712 Monroe St
P.O. Box 511
Stroudsburg, PA 18360
Counsel for Respondents
Carbon County Board of Elections
Monroe County Board of Elections
Pike County Board of Elections
Snyder County Board of Elections
Wayne County Board of Elections

GINN & VICKERY PC
Raymond Edward, Ginn Jr.
Tioga County Solicitor
Po Box 34
Wellsboro, PA 16901-0034
Counsel for Respondent
Tioga County Board of Elections

Robert Eugene Grimm
PO Box 430
Smithfield, PA 15478-0430
Counsel for Respondent
Greene County Board of Elections

SWARTZ CAMPBELL LLC
Robert J. Grimm
Ryan Michael Joyce
436 7th St., 7th 8th Fls
Pittsburgh, PA 15219-2710
Counsel for Respondent
Washington County Board of Elections

BALLARD SPAHR LLP
Terence Martin Grugan
Edward David Rogers
Elizabeth Victoria Wingfield
1735 Market St., Fl 51
Philadelphia, PA 19103-7599
Counsel for Respondent
Delaware County Board of Elections

REGOLI LAW OFFICE
David Allen Regoli
333 Freeport St., Ste 201
New Kensington, PA 15068
Counsel for Respondent
Westmoreland County Board of Elections

LANCASTER COUNTY SOLICITOR’S
OFFICE
Christina Lee Hausner
County Of Lancaster
150 N Queen St SE 714
Lancaster, PA 17603
Counsel for Respondent
Lancaster County Board of Elections

DEASY MAHONEY & VALENTINI
LTD
Christine D. Steere
103 Chesley Dr Ste 101
Media, PA 19063
Counsel for Respondent
Berks County Board of Elections

TALARICO & ASSOCIATES
Thomas S. Talarico
230 W 6TH St., Ste 202
Erie, PA 16507-1077
Counsel for Respondent
Erie County Board of Elections

ALLEGHENY COUNTY LAW
DEPARTMENT
George M. Janocsko
Allan Joseph Opsitnick
Andrew Francis Szefi
564 Forbes Ave Ste 1301
Pittsburgh, PA 15219-2910
Counsel for Respondent
Allegheny County Board of Elections

Nathan W. Karn
401 Allegheny St
P.O. Box 415
Hollidaysburg, PA 16648-2011
Counsel for Respondent
Blair County Board of Elections

Sean Alexander Mott
Molly Ruth Mudd
Adams County Courthouse
117 Baltimore St 2nd Floor
Gettysburg, PA 17325-2367
Counsel for Respondent
Adams County Board of Elections

PORTER WRIGHT MORRIS & ARTHUR,
LLP
Kathleen A. Gallagher
6 PPG Pl Third Floor
Pittsburgh, PA 15222
Counsel for Possible Interventors
Donald J. Trump for President, Inc.
Republican Party of Pennsylvania

Republican National Committee
GLEASON BARBIN & MARKOVITZ,
LLP
William Gleason Barbin
Cambria County Commissioners
200 South Center
Ebensburg, PA 15931
Counsel for Respondent
Cambria County Board of Elections

ROSENN, JENKINS, & GREENWALD,
LLP
Robert Lawrence Gawlas
Robert D. Schaub
15 S Franklin St
Wilkes-Barre, PA 18711
Counsel for Respondent
Susquehanna County Board of Elections

GLASSMIRE & SHAFFER LAW
OFFICE, P.C.
Thomas R. Shaffer
5 E Third St
Coudersport, PA 16915-1631
Counsel for Respondent
Potter County Board of Elections

MCNERNEY, PAGE, VANDERLIN &
HALL
Allen P. Page, IV
433 Market St.
Williamsport, PA 17701
Counsel for Respondent
Union County Board of Elections

BEAVER COUNTY BOARD OF
ELECTIONS
Bureau of Elections
Beaver County Courthouse
810 Third Street
Beaver, PA 15009

BRADFORD COUNTY BOARD OF
ELECTIONS
Bradford County Courthouse Annex
6 Court Street, Suite 2
Towanda, PA 18848

CAMERON COUNTY BOARD OF
ELECTIONS
Cameron County Courthouse
20 E. 5th St.
Emporium, PA 15834

CLEARFIELD COUNTY BOARD OF
ELECTIONS
212 East Locust St.
Clearfield, PA 16830

CRAWFORD COUNTY BOARD OF
ELECTIONS
Courthouse
903 Diamond Park
Meadville PA 16335

CUMBERLAND COUNTY BOARD OF
ELECTIONS
1601 Ritner Hwy, Suite 201
Carlisle, PA 17013

ELK COUNTY BOARD OF
ELECTIONS
Elk County Courthouse
250 Main Street
P.O. Box 448
Ridgway, PA 15853

FOREST COUNTY BOARD OF
ELECTIONS
526 Elm Street, Box 3
Tionesta, PA 16353

FULTON COUNTY BOARD OF
ELECTIONS
116 West Market Street, Suite 205
McConnellsburg, PA 17233

JUNIATA COUNTY BOARD OF
ELECTIONS
P.O. Box 68,
Mifflintown, PA 17059

LYCOMING COUNTY BOARD OF
ELECTIONS
48 West Third Street,
Williamsport, PA 17701

MCKEAN COUNTY BOARD OF
ELECTIONS
500 W Main St
Smethport, PA 16749

PERRY COUNTY BOARD OF
ELECTIONS
P.O. Box# 37
New Bloomfield, PA 17068

SCHUYLKILL COUNTY BOARD OF
ELECTIONS
420 North Centre Street
Pottsville, PA 17901

SOMERSET COUNTY BOARD OF
ELECTIONS
300 North Center Avenue
Suite 340
Somerset, PA 15501

SULLIVAN COUNTY BOARD OF
ELECTIONS
245 Muncy Street
P.O. Box 157
Laporte, PA 18626

WARREN COUNTY BOARD OF
ELECTIONS
204 4th Avenue,
Warren, PA 16365

WYOMING COUNTY BOARD OF
ELECTIONS
1 Courthouse Square
Tunkhannock, PA 18657

s. J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Dated: October 5, 2020

